                                    Inspector General
                              Semiannual Report to Congress




                                   April 1, 2007 – September 30, 2007
 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL




                                         U.S. DEPARTMENT OF ENERGY
                                        OFFICE OF INSPECTOR GENERAL


                                                                        DOE/IG-0053
Front Cover Photographs
(Clockwise)


Heliostats and Solar Two’s tower collect and store enough thermal energy to produce electricity to
power 10,000 homes.

Construction of turbine/generator for hydroelectric plant.

Drilling rig used in Department’s Geothermal Geopressured Extraction Project to extract heated
pressurized water and natural gas trapped below ground.

The Mighty Mouse Robot at Sandia National Laboratory capable of withstanding intense radiation,
maneuvering around obstacles, reaching into awkward places, and drilling into the ground.

Biochip slide research conducted at Argonne National Laboratory to identify human and veterinary
infectious diseases.
                             Department of Energy
                                 Washington, DC 2 0 5 8 5


                                     October 30, 2007




The I Ionorable Samuel W. Bodman
Secretary
U.S. Department of Energy
Washington, DC 20585

Dcar Secretary Bodman:

I am pleased to submit the Oi'fice of Inspector General's (OIG's) Serniunnual Reporf fo
C'ongre.~.~.
           This report summarizes significant OIG activities and accomplishments during
the six month period ending September 30,2007.

This report rcllects our continuing commitment to focus OIG efforts on the issues and
concerns most critical to you, the Administration, the Congress, and the taxpayer. In
particular. the report details OIG accomplishments in identifying the Department's most
significant management challenges.

We look forward to working with you on matters of mutual interest.

                                             Sincerely,




                                             ~ r e ~ H.o Friedman
                                                          ; ~
                                             Inspector General

Enclosure
                            SEMIANNUAL REPORT TO CONGRESS




                       Table of Contents

Inspector General’s Message . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Accomplishments Addressing Management Challenges . . . . . . . . . .3
      Safeguards and Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
      Environmental Cleanup . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
      Stockpile Stewardship . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
      Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
      Project Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
      Cyber Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
      Energy Supply . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11



Other Significant Accomplishments . . . . . . . . . . . . . . . . . . . . . . .13
      Investigative Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
      Other Significant Work . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
      Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
      Congressional Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
      Hotline System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
      Management Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
      Qui Tams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
      Intelligence Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
      Legislative and Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
      Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
      Statistical Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30




                                                                 i
U . S . D E PA RT M E N T O F E N E R G Y                                      OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                      ii
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Inspector General’s Message

I
    am pleased to provide the Office of Inspector General’s
    (OIG’s) Semiannual Report to Congress for the six-
    month reporting period ending September 30,
2007. This year, the Department of Energy and the
OIG celebrated their 30th anniversary. Since 1977,
the OIG has remained committed to helping the
Department achieve its missions by performing
audits, investigations, and inspections of Department
programs and operations. The outstanding leadership
and guidance set forth by the former Inspectors
General—J. Kenneth Mansfield (1978-1981), James R.
Richards (1981-1985), and John C. Layton (1986-1998)—
and the continuing hard work and diligence of our employees past
and present have contributed greatly to the many successes of our organization.

During this reporting period, the OIG continued to assist the Department’s management in
addressing its mission-related priorities and identifying opportunities for programmatic cost
savings, enhanced program performance, and operational efficiencies. We issued 54 audit
and inspection reports that identified over $13.5 million in potential savings. In addition,
                                                             we referred 13 investigations for
                                                             prosecution and obtained
                                                             18 criminal convictions. Our
                                                             work led to the recovery of over
                                                             $6.1 million in fines, settlements,
                                                             and restitutions.

                                                     Annually, the OIG identifies
                                                     what it considers to be the
                                                     Department’s most significant
                                                     management challenges. Our
                                                     work has highlighted contract
                                                     management as one of the most
                                                     pressing programmatic challenges
                                                     facing the Department. In July
                                                     2007, I testified before the
Subcommittee on Government Management, Organization and Procurement, House
Committee on Oversight and Government Reform, on issues pertaining to contract
management at the Department. Although the Department has taken positive steps in




                                               1
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




recent years in this area, our work has documented deficiencies in the way the Department
administers its contracts. These deficiencies have led to wasteful spending practices and
significant security lapses.

During this six-month reporting period, the OIG conducted reviews of contractor travel
expenses, controls over sensitive information, voluntary separation programs, and contractor
transition issues designed to assist the Department in identifying contract management
weaknesses and opportunities for cost savings. For example, our office identified contract
activities that were not conducted in an economic and efficient manner in Voluntary
Separation Program at the Idaho Cleanup Project (DOE/IG-0765) and security issues that
were not given sufficient attention in Security Over Personally Identifiable Information
(DOE/IG-0771). Most importantly, contractors were not always held accountable for their
actions. These deficiencies in contract management are significant because the operations
performed by the Department’s over 100,000 contractor employees, plus a significant
number of subcontractor employees, consume at least three-quarters of the Department’s
budget. As contract management has been a continuing challenge for the Department, the
OIG will continue to focus attention on and devote resources to this critical area.

We look forward to continuing to serve the American public by identifying ways that the
Department can more effectively and efficiently achieve its goals.




                                                      Gregory H. Friedman
                                                      Inspector General




                                             2
OFFICE OF INSPECTOR GENERAL                            U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                   Accomplishments Addressing
                   Management Challenges
Each year, the OIG identifies what it considers to be the most significant management
challenges facing the Department. This effort highlights those programs and operations that
are, in our judgment, the most difficult to manage as well as those with the most significant
demonstrated performance problems. This year, the OIG determined that the most serious
challenges facing the Department are in the areas of:

      ■ Safeguards and Security
      ■ Environmental Cleanup

      ■ Stockpile Stewardship

      ■ Contract Management

      ■ Project Management

      ■ Cyber Security

      ■ Energy Supply



Highlights of our work during the current reporting period, which are set forth in the
following sections of this report, are organized by management challenge area.




Safeguards and Security
The Department plays a fundamental role in the Nation’s security by ensuring the safety of
the country’s nuclear weapons, advancing nuclear non-proliferation, and providing safe and
efficient nuclear power plants for the United States Navy. In order to accomplish this
mission, the Department maintains a substantial security regime, which includes over
4,000 protective force personnel and various physical safeguards for classified material and
other sensitive property. Our reviews over the past six months identified ways that the
Department could improve security across the complex.


Protective Force MK-19 Grenade Launcher Use at Pantex
The OIG received allegations that the MK-19 40 millimeter Grenade Launcher (MK-19)
was being utilized by Pantex Plant protective force officers who (1) lacked adequate training

       Public reports are available in full text on our website at www.ig.energy.gov


                                              3
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                      SEMIANNUAL REPORT TO CONGRESS




on the weapon and (2) had limited access to a training simulation system due to
manufacturing issues. Our inspection substantiated the allegations and identified concerns
with equipment, training, and qualification regarding the MK-19 at Pantex. Specifically, we
found that:

     ■   The MK-19 had been deployed without a night vision device or thermal imaging
         device compatible with the weapon’s sighting system.

     ■   Protective force officers had not received formal training to engage targets at
         operational distances, under both daylight and reduced visibility conditions.

     ■   The Pantex qualification course did not cover site-specific deployment of
         the MK-19.

We made several recommendations to management designed to enhance MK-19 training
and use at Pantex. (IG-0770)


Material Control and Accountability at Los Alamos
National Laboratory
We initiated an inspection at Los Alamos National Laboratory to determine if the
Laboratory’s Material Control and Accountability (MC&A) Program was providing timely
and accurate information regarding the inventory, transfers, characteristics and location of
accountable nuclear materials at the Laboratory. We concluded that, in many respects, the
MC&A Program provided timely and accurate information. However, we identified certain
opportunities for improving controls over accountable nuclear material. As a result, we
made several recommendations designed to enhance the security of Los Alamos’
management of accountable nuclear materials. (IG-0774)


Follow-up Audit of NNSA’s Implementation of the 2003 Design
Basis Threat Policy
The OIG initiated an audit to follow up on the National Nuclear Security Administration’s
(NNSA’s) implementation of the 2003 Design Basis Threat (DBT). Our review revealed
that all seven of NNSA’s sites possessing Category I special nuclear material certified that
they met the 2003 DBT policy by the end of FY 2006, as required by the Department. As
part of policy implementation, NNSA Headquarters validated site by site security programs.
Our review also showed that sites used widely varying strategies to meet the goal.
Additionally, NNSA’s Office of Defense Nuclear Security made significant progress toward
implementing recommendations we made in 2005 to improve its use of NNSA’s planning,
programming, budgeting, and evaluation process. (OAS-M-07-04)




                                                4
OFFICE OF INSPECTOR GENERAL                               U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Controls Over Military-Type Equipment Within the Office of
Secure Transportation
A review of property controls over military-type equipment within the Department’s Office
of Secure Transportation (OST) disclosed that OST had neither adequately identified export
controlled equipment as high risk equipment nor provided effective control and property
management. As a result, we made recommendations to the Assistant Deputy
Administrator for Secure Transportation to ensure adequate controls are in place for
military-type equipment in OST. (INS-L-07-10)


                                            Did you know?
 The Office of Secure Transportation provides safe and secure transportation of nuclear
 weapons and components and special nuclear materials and conducts other missions
 supporting the national security of the United States.




Environmental Cleanup
Department efforts to clean up and dispose of large volumes of solid and liquid radioactive,
non-radioactive, and mixed waste have become essential as a result of more than 50 years of
nuclear defense work and energy research.


Quality Assurance Standards for the Integrated Control Network at
Hanford’s Waste Treatment Plant
                                                    An audit was initiated to determine if the
                                                    computerized integrated control network at
                                                    Hanford’s Waste Treatment Plant met appropriate
                                                    quality assurance standards. Our audit revealed
                                                    that the control system did not meet applicable
                                                    quality assurance standards—specifically, those
                                                    required for “an activity affecting the
                                                    immobilization of radioactive high-level waste.”
                                                    Further, we concluded that Department officials
                                                    had not taken necessary steps to ensure that the
Pulse Jet Mixers used at the Waste Treatment Plant.
                                                    contractor’s actions regarding the control system
were consistent with Agency quality assurance standards. As a result, we recommended that
senior Environmental Management officials conduct necessary tests to ensure that the
control system for the integrated control network at the Plant meets appropriate quality
assurance standards. (IG-0764)


                                                  5
U . S . D E PA RT M E N T O F E N E R G Y                   OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Management Controls Over the Hanford Environmental
Information System
The Hanford Environmental Information System (HEIS) contains data collected in support
of cleanup requirements, groundwater monitoring, environmental impact statements, waste
site remediation and characterization, and biological/ecological monitoring. Our review
disclosed that HEIS did not contain complete environmental sampling data. We made
recommendations to the Richland Operations Office Manager for improvement.
(OAS-M-07-06)




Stockpile Stewardship
The Department is responsible for the maintenance, certification and reliability of the
Nation’s nuclear weapons stockpile. In order to ensure that the United States’ nuclear
weapons continue to serve their essential deterrence role, the Department maintains
stockpile surveillance and engineering capability, refurbishes selected nuclear systems, and
sustains the ability to restore the manufacturing infrastructure for the production of
replacement weapons.


Management of Classified Weapons Parts
We initiated an audit to determine whether selected NNSA sites had adequate
accountability controls over classified weapons parts used for nuclear and non-nuclear
applications. The parts included in our review did not contain special nuclear materials.
Our Official Use Only audit report revealed that two of the three sites we reviewed had not
implemented adequate lifecycle controls. Accordingly, we made recommendations to
improve lifecycle accountability of all classified weapons parts. (IG-0772)




      Public reports are available in full text on our website at www.ig.energy.gov


                                               6
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Contract Management
To accomplish its mission, most of the Department’s operations are carried out through
contracts that consume about three-fourths of its budget. As a result, effective contract
administration is essential to ensuring Department programs and operations are meeting
the established missions and goals.


Voluntary Separation Program at the Idaho Cleanup Project
                                               We initiated an audit to determine whether the
                                               cost and benefits associated with the Idaho
                                               Cleanup Project’s voluntary separation program
                                               were consistent with recent similar efforts at other
                                               Department facilities and whether the separation
                                               was structured to ensure that the Idaho Project
                                               retained the skill mix necessary to meet mission
                                               objectives. Our audit revealed that the managing
                                               and operating contractor at the Idaho Project
                                               reduced the size of its workforce by 291 employees
Idaho Cleanup of Radiological Soil and Debris. under the voluntary separation program at a cost
to the Department of $14 million. In our estimation, however, the separation program
proved to be exceptionally costly and, in certain respects, inefficient. To ensure the
reasonable and equitable treatment for separated employees and their affected communities,
the Department needs a consistent approach to workforce restructuring. As a result, our
report made specific recommendations towards improving management of future workforce
separations. (IG-0765)


Protective Force Overtime Pay at Lawrence Livermore
National Laboratory
The OIG received multiple allegations regarding operations and payroll compensation
within Lawrence Livermore National Laboratory’s Protective Force Division (PFD). Our
review did not substantiate most of the allegations. However, we found that, as alleged,
PFD supervisors were not properly managing payroll input for physical fitness training.
Specifically, PFD supervisors were not verifying the accuracy of physical fitness training
overtime charges prior to approving timecards. This may have resulted in payment of an
estimated $104,000 in questionable costs over a three-month period. We recommended
that the Livermore Site Office Manager take corrective actions to ensure that physical fitness
overtime documentation and verification policy is clearly understood by PFD employees
and that management officials review the allowability of payments for undocumented
physical fitness training overtime. Management concurred with our recommendations and
is taking steps to determine allowability. (INS-O-07-03)


                                                 7
U . S . D E PA RT M E N T O F E N E R G Y                  OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Management Controls Over Facility Contractor Travel Expenses
We initiated an audit to determine whether selected Department contractors were effectively
managing domestic and foreign travel and related expenses, as prior reviews had disclosed
problems with contractors’ travel costs. Our work at the Oak Ridge National Laboratory,
Y-12 National Security Complex, and Sandia National Laboratories disclosed that, at these
sites, internal controls over contractor travel were generally adequate and travel expenses
were reasonable. Overall, we noted that travel management procedures were generally
efficient and consistent with applicable guidance. However, we identified various problems
and opportunities to strengthen certain internal controls. We made several suggestions to
the managers of the respective site offices, which were referred to the appropriate contractor
for resolution. (OAS-M-07-03)


Proprietary Use of Department Facilities
The Department of Energy’s Accounting Handbook requires that proprietary users of national
laboratories and universities provide advance payments prior to beginning experiments using
Energy facilities. These advances are applied to offset the Department’s operating costs. An
audit was conducted to determine whether cash advances had been paid to the Department
for proprietary experiments performed at user facilities. Our review revealed that the
Department had not always received advance payments for the proprietary use of its
facilities. Specifically, four of five user facilities did not obtain adequate advances for 46
percent (190 of the 409) of the proprietary experiments included in our review. We
recommended that the Department require its site offices to implement controls to ensure
that facilities are collecting advances from proprietary users. (OAS-M-07-07)


Protective Force Equipment Purchases at Pantex
We initiated an inspection based upon allegations that certain purchases of protective force
equipment at the Pantex Plant were unnecessary. During the inspection, Pantex provided
what appeared to be a valid basis for the questioned acquisitions. However, we determined
that Pantex’s deployment of approximately 500 Bushmaster M-4 carbine rifles, valued at
$390,963, was significantly delayed due to flaws in planning by responsible Pantex
contractor and Federal officials. We also identified that an Aircraft Detection System (ADS)
purchased by Pantex has had problems with its false alarm rate. Given the sensitivity of
operations at Pantex and the significant commitment of resources to provide appropriate
security at the site, we made recommendations to the Pantex Site Office Manager to ensure
necessary protective force equipment is deployed on a timely basis and that the false alarm
rate for the ADS is addressed. (INS-L-07-07)




                                              8
OFFICE OF INSPECTOR GENERAL                             U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Contract Transition Activities at Los Alamos National Laboratory
In December 2005, the Department awarded a contract to Los Alamos National Security,
LLC, to manage the Los Alamos National Laboratory. We reviewed transition costs and
activities to determine if costs incurred were allowable. Our review identified $22,335 in
questioned travel costs incurred during the transition. We referred these costs to the Los
Alamos Site Office Manager to determine allowability. (OAS-L-07-16)


                                            Did you know?
 The Los Alamos National Laboratory is the largest institution in Northern New Mexico,
 with more than 9,000 contractor employees.




Project Management
The Department undertakes numerous unique and complex high cost projects in order to
support its mission. In recent years, the Department has implemented stronger policies and
controls to ensure that ongoing projects are reevaluated frequently. Recent OIG reviews
identified additional necessary improvements to ensure that the Department’s project
management principles are effective and accomplishing their goals.


Construction of a Radiological/Nuclear Complex for
Homeland Security
In 2005, the Department of Homeland Security entered into an interagency agreement with
NNSA’s Nevada Site Office to construct the Radiological/Nuclear Countermeasures Test
and Evaluation Complex. The fast-tracked project was scheduled for completion in
February 2007. However, in August 2006, with only 68 percent of the construction
completed, the Nevada Site Office suspended work on the project. At that time, the project
had incurred $29.7 million of the total budgeted cost of $33 million. Based on information
received regarding potential cost overruns and delays, we initiated an audit to determine if
the Nevada Site Office had effectively managed this project. Our review revealed that the
fast-track strategy employed increased risk, yet the Nevada Site Office had not aggressively
managed this project. For example, the Site Office had not: (1) ensured the cost and
schedule baselines were prepared, coordinated, and used for project management; (2)
allocated adequate contingency funds for the project; (3) effectively monitored project
status; and (4) effectively communicated project status to senior Department of Energy and
Homeland Security officials. To assist the Department in managing future Homeland
Security projects, we made a number of recommendations. (IG-0775)



                                                  9
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                      SEMIANNUAL REPORT TO CONGRESS




Cyber Security
The Department spends approximately $2.5 billion a year on information technology.
Recently, however, threats to the Department’s information systems have increased. The
vast array of sensitive data that Department laboratories and facilities generate increases
the potential for compromise of sensitive information. While the Department has taken a
number of positive actions designed to improve the overall management of its cyber
security program, additional improvements in this critical area are still needed. During
this reporting period, the OIG conducted various reviews in this area that highlighted the
need for improvement.


The Department’s Unclassified Cyber Security Program - 2007
As required by the Federal Information Security Management Act (FISMA), the OIG
conducted its annual independent evaluation to determine whether the Department’s
unclassified cyber security program adequately protected data and information systems.
Our review found that the Department had taken steps to improve cyber security practices
and continued to maintain strong network perimeter defenses against malicious intruders
and other external threats. However, certain problems persisted, and additional action was
required to reduce the risk of compromise to information systems and data. To aid the
Department in its ongoing efforts, we made several recommendations designed to enhance
overall controls over the cyber security program. (IG-0776)


Security Over Personally Identifiable Information
In response to a request from the Office of Management and Budget (OMB), the OIG, in
coordination with the President’s Council on Integrity and Efficiency, performed a review of
the Department’s controls over the protection of Personally Identifiable Information (PII).
Our review revealed that the Department had not fully implemented all protective measures
recommended by OMB and required by the National Institute of Standards and
Technology. In particular, we observed that:

     ■   Seven of 11 field sites reviewed had not identified information systems containing
         PII or fully evaluated the risks of exposing PII stored in such systems;

     ■   Controls for securing remote access to site-level systems containing personal
         information had not been fully implemented; and

     ■   Five sites had not identified mobile computing devices containing PII nor ensured
         that this information was encrypted as required by OMB.

As a result, we made several recommendations designed to improve security over PII
maintained by the Department. (IG-0771)


                                              10
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Energy Supply
Over the last several years, energy consumption in the United States and throughout the rest
of the world has grown substantially. As a result of this growth, as well as other world events,
the United States’ energy supply has come under stress, and obstacles have arisen that create
challenges for achieving a stable and reliable energy supply system. The Department is in a
unique position to help ensure that the Nation’s energy needs are met through sound energy
policy, research and development, and overall leadership.


Expansion of the Strategic Petroleum Reserve
                                                  The Energy Policy Act of 2005 required the
                                                  Department to expand the Strategic Petroleum
                                                  Reserve’s (Reserve) maximum storage capacity to
                                                  one billion barrels of crude oil. After evaluating
                                                  various alternatives, the Department decided to
                                                  develop a new 160 million barrel storage facility at
                                                  Richton, Mississippi, and to expand the storage
                                                  capacity at two existing Reserve facilities.
                                                  Subsequent to the selection of the Richton site as
                                                  the preferred expansion alternative, concerns were
Holding tanks at the Strategic Petroleum Reserve. raised about the procedures used for eliminating a
Bruinsburg, Mississippi, site from consideration as a storage facility. Specifically, the OIG
reviewed concerns over well data, seismic data, and salt dome sizing at the Bruinsburg site, as
well as environmental concerns over the potential for brine leaks from the Richton pipeline.
We found that the Department and its contractor had analyzed extensive information
regarding the well data, seismic data, and salt dome sizing at the Bruinsburg site. In reference
to the brine leaks, we found that the Department had improved its pipeline protection
measures and planned to employ these measures at the Richton site. (IG-0767)




                                                 11
U . S . D E PA RT M E N T O F E N E R G Y                    OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                     12
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                   Other Significant
                   Accomplishments
Investigative Outcomes
Government Grantee Improperly Managed Cooperative Agreements
A joint OIG investigation determined that a Government grantee improperly managed
cooperative agreements with the Department. During the course of the investigation,
accounting irregularities were identified. Subsequently, the grantee disbanded the company
and filed for Chapter 7 Bankruptcy. As a result of the investigation, Department
procurement officials returned $2.9 million to the U.S. Treasury – monies the company
would have received had its 2006 cooperative agreement with the Department continued.
(I06HQ016)


Department Disallows and Reduces Managing and Operating
Contractor’s Fees
An OIG investigation determined that a managing and operating (M&O) contractor failed
to comply with Department approved procedures regarding general liability insurance
requirements. Specifically, the contractor failed to require a subcontractor to produce an
insurance certificate that named the M&O contractor and the Government as insured
parties. As a result of a report to management, the Department disallowed $341,000 of
legal and settlement costs resulting from a civil liability lawsuit and also reduced the M&O
contractor’s award fee by $408,000. The Department also advised the contractor to require
its procurement officials to receive training on insurance coverage requirements and to
provide accurate and complete insurance certificates, which afford indemnification for the
Department. (I06SR005)


Individuals Prosecuted in Conspiracy to Damage/Destroy
Energy Facilities
An OIG investigation determined that a group of eight individuals committed several
burglaries and thefts of recyclable metals, tools, and personal property at the Bonneville
Power Administration and Portland Gas & Electric Energy facilities’ substations in Oregon,
resulting in approximately $50,000 in losses and damages. In fact, the damage sustained to
one substation nearly shut down the facility, which routes thousands of mega watts of
electricity to Southern California. During this reporting period, three of the eight


                                             13
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




individuals pled guilty to one felony count of conspiracy to damage/destroy energy facilities.
Additionally, one individual who previously pled guilty to conspiracy was sentenced to 27
months incarceration, 3 years probation, and ordered to pay restitution in the amount of
$43,806. (I06RL001)


Department Subcontractors Sentenced for Conspiracy Scheme
As previously reported, a joint OIG investigation with other law enforcement agencies
determined that a Department subcontractor, company President, and Chief Operating
Officer were involved in a scheme to launder money obtained from Department contracts.
During this reporting period, the company’s President was sentenced to 21 months
incarceration, 3 years supervised release, and ordered to pay restitution and fines of $62,218.
The company’s Chief Operating Officer was sentenced to five months imprisonment, five
months home confinement/electronic monitoring, two years supervised release, and ordered
to pay restitution and fines of $12,078. A business associate was also sentenced to 3 years
probation, to include 60 hours community service, and ordered to pay restitution and fines
of $23,638.50. (I00OR008)


Former Department Employee Pleads Guilty to Misuse of
Government Travel Card
An OIG investigation determined that a former employee at the National Energy
Technology Laboratory failed to surrender an assigned Government credit card upon
resignation. The employee subsequently used the card to make 85 personal transactions
valued at approximately $6,493. The subject pled guilty to one count of making False
Statements and was sentenced to five years supervised probation and ordered to make
restitution. (I06PT001)


Department Manager Sentenced and Debarred for Conflict
of Interest
As previously reported, an OIG investigation determined that a GS-15 manager at the
Bonneville Power Administration used her official position to help her spouse obtain a job
with a Bonneville contractor. During this reporting period, the manager was sentenced to
four months at a community corrections center, five years probation, and fined a $300
special assessment fee. Further, in response to a report to management, the Department
issued Notices of Debarment to the former Bonneville Power Administration manager and
her husband. (I03RL017)


      Public reports are available in full text on our website at www.ig.energy.gov


                                              14
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Los Alamos Employee Sentenced for Embezzlement
As previously reported, an OIG investigation determined that a Los Alamos National
Laboratory employee falsely requested three checks totaling $55,000 payable to a fictitious
entity. The employee, who was also a purchase buyer, personally picked up the checks and
deposited them into a personal credit union account. The individual pled guilty in the U.S.
District Court for the District of New Mexico to violations of False Statements, False
Claims, and Theft. During this reporting period, the former employee was sentenced to
four months incarceration, four months home confinement, three years supervised release,
and assessed $35,489 in restitution. (I05AL013)


Employee Sentenced for Providing False Statements
An OIG investigation determined that a Department employee provided false statements
regarding place and date of birth on security documents and on an application for early
retirement. After being found guilty in a jury trial, the employee was sentenced on 2 counts
of false statements to 366 days of incarceration, 3 years of supervised release, and $20,437
in restitution fees. The Office of Personnel Management (OPM) suspended the former
employee’s retirement annuity until 2014. Also, OPM removed the former employee from
the Government funded health benefits and life insurance programs, which allowed OPM
to recover $6,477. The former employee was also debarred from Government contracting
for three years. (I04SR002)


Multiple Individuals Prosecuted in Company-Wide Fraud Scheme
In our last Semiannual Report, we discussed a joint investigation relating to fraudulent
conduct at a metal distributor company. During this reporting period, another involved
employee was sentenced to 48 months in prison, 4 years of supervised release, assessed
$269,789 in restitution and fines, and required to undergo 500 hours in a drug treatment
program. (I04AL002)


Information Technology Contractor Pled Guilty to Conspiracy
A joint OIG investigation determined that two individuals from an information technology
sales company misrepresented and sold “gray” market and counterfeit networking and
computer equipment to the Department of Energy and the Department of Defense. The
owner and an employee of the company pled guilty to one count of conspiracy to defraud
the Government. Sentencing is pending. (I04RL005)




                                             15
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Department Grantee Employee Sentenced in Purchase
Card Scheme
A joint investigation determined that a Department grantee employee used a purchase card
to make fraudulent purchases, which were charged to grant programs funded by the
Department and the National Science Foundation. The individual was sentenced to 16
months incarceration, 3 years supervised release, and ordered to pay restitution of $18,000.
(I05DN001)


Contractor Employee Terminated for Submitting Fraudulent Timecards
A joint investigation determined that a contractor employee at the Pacific Northwest
National Laboratory submitted multiple fraudulent timecards for work not actually
performed. As a result of the investigation, the contractor employee was terminated and
subsequently debarred for three years from Government contracting. In addition, the
employee was ordered to pay restitution and fines amounting to $46,000 for violations of
the False Claims Act. (I05RL010)


Laboratory Employee Sentenced for Unauthorized Access to a
Government Computer
An OIG investigation determined that a Sandia National Laboratory employee operated a
personal business while working at the Laboratory and accessed Sandia’s network without
authorization upon termination of employment. Specifically, the employee downloaded
numerous web page templates that included user names and passwords. The employee was
sentenced to one count of unauthorized access to a Government-owned computer and was
sentenced to six months home detention with electronic monitoring, two years probation,
and over $26,000 in fines and restitution. (I05TC001)


Contractor Employee Pleads Guilty to Solicitation of a Minor
A joint investigation determined that a Department contractor employee used a
Government computer to solicit sex from a minor. The individual’s employment was
terminated as a result of his illegal activities. The individual pled guilty to State charges of
using a communications system to solicit a minor for sexual activity and attempted indecent
liberties. The individual was sentenced to five years incarceration, five years probation, and
was required to register as a sex offender. (I07TC003)



      Public reports are available in full text on our website at www.ig.energy.gov


                                              16
OFFICE OF INSPECTOR GENERAL                               U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Former Subcontractor Employee Pleads Guilty and Is Debarred for
Computer Theft
An OIG investigation determined that a terminated subcontractor employee used his site
access badge and work keys to gain access to his former employer’s trailer at the Oak Ridge
National Laboratory. The former employee then stole a computer that contained the
Personally Identifiable Information of subcontractor employees at the Laboratory. The
individual pled guilty to one count of burglary and one count of theft and was sentenced to
two years incarceration, two years probation, and fines amounting to $2,606. Further, as a
result of an OIG report to management, policy regarding security procedures at the
Laboratory was improved, and the former employee was debarred from future Government
contracting for three years. (I06OR012)


Management Initiates Measures to Protect Metals From Theft
A joint investigation determined that a Thomas Jefferson National Laboratory contractor
technician stole industrial metals, including copper, aluminum, and stainless steel, over a
four-year period and sold them to a local metal recycle dealer. The estimated value of the
stolen metals was $5,000. The technician was found guilty and sentenced in State court.
As a result of a report to management, the Department has initiated a number of corrective
measures designed to improve the accountability, control, disposal, and storage of industrial
scrap and salvage metals at the Laboratory. The technician’s employment was also
terminated. (I07HQ004)


Contractor Employee Pleads Guilty to Computer Hacking
A joint investigation with the U.S. Secret Service and the Defense Criminal Investigative
Service determined that a Sandia National Laboratory contractor employee misused her
Government computer to hack into a private citizen’s account and steal data belonging to
that individual. The employee pled guilty to three counts relating to this offense.
(I07TC002)




                                             17
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Other Significant Work

Alleged False Certifications Relating to the Testing of Contingency
Protective Force at Pantex
The OIG received allegations regarding the administration of written tests for training of
the contingency protective force at NNSA’s Pantex Plant. Specifically, it was alleged that
BWX Technologies, Inc. (BWXT) officials knowingly passed individuals who failed a
written exam or failed to change their incorrect answers. Additionally, during the course of
the investigation, we received information that BWXT instructors tolerated student cheating
during written exams. During our review, we noted questionable practices, such as allowing
test-takers and students who were reviewing course materials to be in the same room during
self-paced courses. We suggested that the Department ensure that testing and certification
procedures are executed in an environment where the highest security performance
standards are in effect and one which precludes even the appearance of irregularity or
wrongdoing. (I07AL011)


Acquisition and Management of Information
Technology Hardware
We initiated an audit to determine whether the Department had effectively managed its
acquisition and control of information technology (IT) hardware. Our review established
that certain Department facility contractors had not adequately managed the acquisition and
control of IT hardware. A number of contractors had not consistently taken advantage of
opportunities to reduce acquisition and support costs, addressed security concerns related to
certain aging systems, or ensured that accountability was maintained over sensitive computers
and devices. These problems occurred because the Department had not developed a
coordinated approach to IT hardware acquisition, management, and control. As such, we
made several recommendations designed to increase the efficiency and effectiveness of the
Department’s hardware acquisition and management process. (IG-0768)


Workers’ Compensation Program at Department of
Energy Headquarters
An OIG inspection concluded that the Department’s Office of Human Resource Services’
Employee WorkLife Center (EWLC) did not effectively manage the Headquarters workers’
compensation program and that several aspects of the program needed improvement.
Specifically, our inspection found that EWLC did not: (1) maintain adequate records for
many of the cases we reviewed; (2) adequately monitor its long term cases; (3) have written
policies or procedures for managing open cases under the Headquarters workers’


                                             18
OFFICE OF INSPECTOR GENERAL                             U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




compensation program; and (4) have performance measures to assess its management of the
Headquarters workers’ compensation program. As a result, we recommended that the
Office of Human Capital Management ensure that EWLC develop and implement written
policies for the workers’ compensation program and develop performance measures and
employee standards to encourage effective management of the program. (IG-0769)


                                            Did you know?
 The Federal Employees’ Compensation Act (FECA) provides medical and salary benefits
 to Federal civilian employees who suffer work-related injuries or illnesses that prevent
 them from working. The FECA program pays for medical expenses related to
 employees’ injuries or diseases, provides wage compensation until they can return to
 work, and covers vocational rehabilitation.



The Department’s Audit Resolution and Follow-up Process
We initiated an audit to evaluate the Department’s progress in correcting prior audit follow-
up issues and to determine whether issues identified through recent OIG audits had been
resolved. We found that the Department had made significant improvements to many
aspects of its follow-up system. In particular, it had ensured that target closure dates were
established for all agreed-upon recommendations and that, in most cases, audit
recommendations were closed in a timely manner. However, we found that, in some cases,
agreed-upon recommendations had been closed, but corrective actions either had not been
completed or were ineffective. Our report provided several recommendations designed to
make the audit resolution and follow-up process more effective. (IG-0766)


Confirmatory Bioassay Testing at Selected Sites
Bioassay testing of workers helps to determine whether and to what extent they may have
absorbed radioactive material. We initiated an audit to determine whether contractor-
developed bioassay programs were effectively administered. Our audit found that, at
selected sites, Department site contractors had not ensured that all personnel who had
regular access to radiological areas were being monitored in accordance with established site-
level requirements. We also concluded that site-level safeguards for the bioassay component
of the contractor-developed monitoring program were inadequate and that Federal reviews
by the Department were not always sufficient. As a result, we made several
recommendations designed to ensure that monitoring and testing for radiological workers
is appropriate. (IG-0773)




                                                 19
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Loan Guarantees for Innovative Energy Technologies
Title XVII of the Energy Policy Act of 2005 authorized the Department of Energy to
provide loan guarantees for projects that avoid, reduce, or sequester air pollutants or
emissions of greenhouse gases and employ new or improved energy production technologies
as compared to the commercial technologies in use. Currently, the Department has $4
billion in loan guarantee authority and has requested $9 billion in Fiscal Year 2008. Under
the Act, the Department may guarantee up to 80 percent of total project costs. The OIG
conducted a special review to identify lessons learned from prior Departmental and Federal
agency loan guarantee and related programs. In reviewing audits of past governmental loan
guarantee programs, we found that the agencies involved had not always exercised due
diligence during critical phases of the loan guarantee process. Thus, the establishment of a
comprehensive set of administrative safeguards is essential if the loan guarantee program at
the Department of Energy is to be successful in its overall objective of meeting United
States’ energy requirements. (IG-0777)


Review of Status of Export Control Recommendations
As mandated by the National Defense Authorization Act of 2000, the OIG conducted a
review of the status of all 17 prior export control recommendations made to the
Department (including NNSA) by the OIG. Our review revealed that the actions taken by
the Department regarding 16 of the 17 recommendations appeared responsive and should
be closed. To fully implement the remaining recommendation, we recommended that
NNSA management expedite action to issue a directive or modify the Department of
Energy Acquisition Regulation. We also recommended that Energy Order 142.3,
“Unclassified Foreign Visits and Assignments,” be revised to reflect the current Energy
process for reviewing foreign national visitors and assignees from certain designated nations.
(INS-O-07-01)


Sandia National Laboratory’s Safety Practices
The OIG conducted a review of Sandia National Laboratory-New Mexico’s (Sandia’s) safety
practices, including lockout/tagout (LOTO) procedures. Our review concluded that
improvements could be made in safety practices at Sandia. Specifically, we found that
Sandia’s LOTO program requirements were not always effectively implemented; that some
employees were not familiar with LOTO procedures; that LOTO checklists were not
retained as required; and that some employees were not using safety glasses as required. We
made several recommendations to the Sandia Site Office manager to improve the LOTO
program. (INS-L-07-11)




                                             20
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Results

Highlights of Positive Results Based on Office of Inspector
General Work
During this reporting period, the Department took positive actions as a result of OIG work
conducted during the current or previous periods. Consistent with our findings and
recommendations:

   ■   The Department took action to improve its cyber security posture by issuing revised
       policy that provided direction on management, operating, and technical controls and
       addressed incorporation of Federal cyber security requirements into operating contracts.
       In addition, a formal working group was established to ensure that Department-
       developed cyber security guidance complies with National Institute of Standards and
       Technology guidelines.

   ■   The Department initiated a number of actions to correct deficiencies identified related
       to certification and accreditation of unclassified information systems. For example, the
       Argonne National Laboratory took action to correct longstanding weaknesses in system
       certification and accreditation at its site. Subsequently, the OIG was able to close an
       information technology finding originally issued in Fiscal Year 2002.

   ■   The Department included provisions related to unexpected overtime in the new
       protective force contracts at Oak Ridge. These provisions will allow the Department to
       better control the profit paid to the contractor in times of heightened security.

   ■   Los Alamos National Laboratory and NNSA initiated various corrective actions to
       close vulnerable computer data ports. In addition, the Office of Health, Safety and
       Security is reviewing the Department’s process for granting and maintaining personnel
       security clearances.

   ■   The Department launched an evaluation of its own and its contractor’s quality
       assurance programs affecting the construction of the Hanford Site’s Waste
       Treatment Plant.

   ■   The Department initiated a complex-wide policy for the training, use, health, welfare,
       and performance testing of working security dogs. Further, the Office of Health, Safety
       and Security developed and incorporated specific canine-related lines of inquiry into
       the conduct of all security inspections. These actions are aimed at ensuring the Canine
       Program provides an adequate level of protection for the Department’s personnel
       and facilities.

        Public reports are available in full text on our website at www.ig.energy.gov


                                               21
U . S . D E PA RT M E N T O F E N E R G Y                 OFFICE OF INSPECTOR GENERAL
                    SEMIANNUAL REPORT TO CONGRESS




Congressional Responses

During this reporting period, the OIG provided information at the request of Congress in
15 instances and briefed Committee staff on 7 occasions. In addition, the OIG testified at
two congressional hearings: (1) on April 20, 2007, before the Subcommittee on Oversight
and Investigations, Committee on Energy and Commerce, entitled “Department of Energy’s
Response to Ongoing Mismanagement at the Los Alamos National Laboratory”; and (2) on
July 18, 2007, before the Subcommittee on Government Management, Organization, and
Procurement, entitled “Federal Contracting: Do Poor Performers Keep Winning?”




Hotline System

The OIG operates a Hotline System to facilitate the reporting of allegations involving the
programs and activities under the auspices of the Department. During this reporting
period, 627 complaints were processed. The OIG Hotline System can be reached by calling
1-800-541-1625 or 1-202-586-4073.




Management Referral System

The OIG operates an extensive Management Referral System. Under this system, selected
matters received through the OIG Hotline or other sources are referred to the appropriate
Department manager or other Government agency for review and appropriate actions.

The OIG referred 105 complaints to Department management and other Government
agencies during this reporting period and specifically requested Department management to
respond concerning the actions taken on 47 of these complaints. Otherwise, Department
management is asked to respond if it develops information or takes action that it believes
should be reported.




                                            22
OFFICE OF INSPECTOR GENERAL                           U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Qui Tams

The OIG continues to be instrumental in working with the Department of Justice in
Qui Tam cases. The OIG is currently working on 20 Qui Tam lawsuits involving a potential
recovery for the Government in the amount of approximately $137 million. These cases are
highly resource intensive, requiring the active participation of OIG investigative and audit
assets. However, they have proven to be targets of opportunity within the Department of
Energy with a high return on our investments.

During this reporting period, a joint Qui Tam OIG investigation determined that multiple
contractors received or provided benefits such as rebates, influence fees, referral fees, finder’s
fees, discounts, and development funds as a result of alliance agreements. This resulted in
false claims, false statements, and kickbacks on Federal Government contracts. Civil
settlements were reached with two contractor companies, one of which amounted to
$2,316,662. (I05AL005)


                                            Did you know?
 The False Claims Act prohibits any person from “knowingly” presenting a “false or
 fraudulent claim for payment or approval” to the Federal Government. The Act
 authorizes individual citizens to bring private suits, referred to as Qui Tam actions, to
 enforce the Act on behalf of the Government.




Intelligence Activities

The OIG issued two quarterly reports pursuant to Executive Order 12863, “President’s
Foreign Intelligence Advisory Board.” The Order requires the Inspectors General of the
Intelligence Community to report to the Intelligence Oversight Board concerning
intelligence activities the Inspectors General have reason to believe may be unlawful or
contrary to Executive order or Presidential directive. No intelligence activities were reported
during this period that were contrary to Executive order or Presidential directive.




       Public reports are available in full text on our website at www.ig.energy.gov


                                                 23
U . S . D E PA RT M E N T O F E N E R G Y                  OFFICE OF INSPECTOR GENERAL
                    SEMIANNUAL REPORT TO CONGRESS




Legislative and Regulatory Review

The Inspector General Act of 1978, as amended, requires the OIG to review and comment
upon legislation and regulations relating to Department programs and to make
recommendations concerning the impact of such legislation or regulations on Departmental
economy and efficiency. The OIG coordinated and reviewed 23 legislative and regulatory
items during the reporting period.




                                          24
OFFICE OF INSPECTOR GENERAL                          U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                   Reports Issued
Audit Reports Issued – April 1, 2007 to September 30, 2007

Report                                                Date of                 Questioned
Number                           Title                 Issue      Savings       Costs
IG-0764            Quality Assurance Standards for    05-04-07                $13,000,000
                   the Integrated Control Network
                   at the Hanford Site’s Waste
                   Treatment Plant
IG-0765            Voluntary Separation Program at    05-18-07 $10,000,000     $2,000,000
                   the Idaho Cleanup Project
IG-0766            The Department’s Audit Resolution 05-24-07
                   and Follow-Up Process
IG-0767            Expansion of the Strategic         06-19-07
                   Petroleum Reserve
IG-0768            Facility Contractor Acquisition    06-22-07   $3,314,718
                   and Management of Information
                   Technology Hardware
IG-0771            Security Over Personally           07-30-07
                   Identifiable Information
IG-0772            The National Nuclear Security      07-31-07
                   Administration’s Management of
                   Classified Weapons Parts*
IG-0773            Confirmatory Bioassay Testing      08-17-07
                   at Selected Sites
IG-0775            National Nuclear Security          09-12-07
                   Administration’s Construction of
                   a Radiological/Nuclear Complex
                   for the Department of
                   Homeland Security
IG-0776            The Department’s Unclassified      09-18-07
                   Cyber Security Program – 2007
IG-0777            Loan Guarantees for Innovative     09-19-07
                   Energy Technologies



                                                25
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                 SEMIANNUAL REPORT TO CONGRESS




Report                                            Date of                    Questioned
Number                     Title                   Issue        Savings        Costs
OAS-M-07-03   Management Controls over            04-26-07
              Selected Facility Contractor
              Travel Expenses
OAS-M-07-04   Follow-Up Audit of the National     06-04-07
              Nuclear Security Administration’s
              Implementation of the 2003
              Design Basis Threat Policy
OAS-M-07-05   National Security Technologies,     08-17-07
              LLC Internal Audit
              Implementation Design*
OAS-M-07-06   Management Controls over the        09-17-07
              Hanford Environmental
              Information System
OAS-M-07-07   Management Controls over Cash       09-25-07
              Advances for Proprietary Use of
              Office of Science User Facilities
OAS-L-07-10   The Department of Energy’s          04-11-07
              Community and Regulatory
              Support Funding at the
              Carlsbad Field Office
OAS-L-07-11   The Department of Energy’s          04-11-07                        $300,000
              Community and Regulatory
              Support Funding at the Richland
              Operations Office
OAS-L-07-12   Continuity of Operations at the   05-24-07
              Western Area Power Administration
OAS-L-07-13   Safety Allegations Related to the   05-31-07
              Waste Treatment Plant at the
              Hanford Site
OAS-L-07-14   Agreed-Upon Procedures for          07-09-07
              Federal Payroll
OAS-L-07-15   Idaho National Laboratory           07-12-07       $160,000
              Facility Footprint Reduction
OAS-L-07-16   Contract Transition Activities at   08-07-07                         $22,335
              Los Alamos National Laboratory




                                             26
OFFICE OF INSPECTOR GENERAL                         U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Report                                                 Date of               Questioned
Number                           Title                  Issue      Savings     Costs
OAS-L-07-17        Executive Compensation at           08-13-07                 $414,867
                   Argonne National Laboratory
OAS-L-07-18        Executive Compensation at           08-13-07                  $31,472
                   Brookhaven National Laboratory
OAS-L-07-19        Executive Compensation at           08-13-07
                   Selected Office of Science Sites
OAS-L-07-20        Executive Compensation at           08-13-07                  $17,189
                   Selected Office of Environmental
                   Management Sites
OAS-L-07-21        Executive Compensation at          08-13-07
                   Selected National Nuclear Security
                   Administration Sites
OAS-L-07-22        Hazardous Chemicals Inventory       08-15-07
                   Management at the Savannah
                   River Site
OAS-L-07-23        The Federal Energy Regulatory       09-18-07
                   Commission’s Cyber Security
                   Program – 2007
OAS-L-07-24        Use of External Independent         09-12-07
                   Reviews at Environmental
                   Management Sites
OAS-L-07-25        Remote Access to the Department’s   09-28-07
                   Unclassified Information Systems
OAS-L-07-26        Department’s Implementation of       09-28-07
                   the Strategic Integrated Procurement
                   Enterprise System – Transition
                   Planning, Interfaces, and Testing
OAS-V-07-08        Assessment of Changes to the        04-10-07
                   Internal Control Structure and
                   Their Impact on the Allowability of
                   Costs Claimed by and Reimbursed to
                   Washington Savannah River
                   Company, LLC under Department
                   of Energy Contract No.
                   DE-AC09-96SR18500




                                                 27
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                            SEMIANNUAL REPORT TO CONGRESS




Report                                                     Date of                    Questioned
Number                                   Title              Issue        Savings        Costs
OAS-V-07-09             Assessment of Changes to the       08-10-07                        $104,543
                        Internal Control Structure and
                        Their Impact on the Allowability
                        of Costs Claimed by Lawrence
                        Livermore National Laboratory
                        during Fiscal Year 2005 under
                        Contract No. W-7405-ENG-48
OAS-V-07-10             Assessment of Changes to the       09-11-07
                        Internal Control Structure and
                        Their Impact on the Allowability
                        of Costs Claimed by Ames
                        Laboratory During Fiscal Years
                        2003 Through 2006
OAS-V-07-11             Assessment of Changes to the       09-26-07       $106,757          $89,840
                        Internal Control Structure and
                        their Impact on the Allowability
                        of Costs Claimed by Argonne
                        National Laboratory during
                        Fiscal Year 2006
OAS-V-07-12             Assessment of Changes to the     09-27-07
                        Internal Control Structure and
                        Their Impact on the Allowability
                        of Costs Claimed by Bechtel BWXT
                        Idaho, LLC during Fiscal Years
                        2005 and 2006
L-07-01                 Congressional Earmarks within      04-24-07
                        Department of Energy Programs
*Report contains Official Use Only information.




                                                    28
OFFICE OF INSPECTOR GENERAL                                  U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




Inspection Reports Issued – April 1, 2007 to September 30, 2007*

Report Number                 Title                                                        Date of Issue
INS-O-07-01                   Review of Status of Prior Export Control                         05-22-07
                              Recommendations at the Department of Energy
IG-0769                       Management of the Workers’ Compensation Program at               06-29-07
                              Department of Energy Headquarters
INS-L-07-07                   Alleged Unnecessary Protective Force Equipment Purchases         07-11-07
                              at Pantex
INS-O-07-02                   Controls Over Ammunition Within the Office of                    07-13-07
                              Secure Transportation
IG-0770                       Protective Force MK-19 Grenade Launcher Use at the               07-20-07
                              National Nuclear Security Administration’s Pantex Facility
INS-O-07-03                   Protective Force Overtime Pay at Lawrence Livermore              07-23-07
                              National Laboratory
INS-L-07-08                   Y-12 National Security Complex Safety Program                    08-13-07
INS-L-07-09                   Safety and Health Concerns at the Environmental                  08-21-07
                              Management Waste Management Facility
INS-L-07-10                   Controls Over Military-Type Equipment Within the Office          08-27-07
                              of Secure Transportation
IG-0774                       Material Control and Accountability at Los Alamos                09-07-07
                              National Laboratory
INS-L-07-11                   Sandia National Laboratory’s Safety Practices                    09-28-07
*Does not include non-public reports




                                                      29
U . S . D E PA RT M E N T O F E N E R G Y                        OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




                        Statistical Information
Audit Report Statistics – April 1, 2007 to September 30, 2007

The following table shows the total number of audit reports and the total dollar value of the
recommendations that funds be put to better use by management:

                                            Total            One Time                 Recurring            Total
                                           Number             Savings                  Savings            Savings
Those issued before the                          5          $980,951,173              $6,000,000          $986,951,173
reporting period for which
no management decision has
been made:*
Those issued during the                         32            $15,671,315                         $0       $15,671,315
reporting period:
Those for which a             11                            $107,603,201                          $0      $107,603,201
management decision was made
during the reporting period:*
Agreed to by management:                                      $92,091,886                         $0       $92,091,886
Not agreed by management:                                                   $0                    $0                $0
Those for which a                               19                 $160,000                       $0         $160,000
management decision is
not required:
Those for which no                               7          $904,530,602              $6,000,000          $910,530,602
management decision has
been made at the end of
the reporting period:*
*The figures for dollar items include sums for which management decisions on the savings were deferred.




                                                              30
OFFICE OF INSPECTOR GENERAL                                                  U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




Audit Report Statistics – April 1, 2007 to September 30, 2007

The following table shows the total number of audit reports and the total dollar value of
questioned and unsupported costs.

                                                                      Total Questioned                    Unsupported
                                                                     Number   Costs                          Costs
Those issued before the reporting period for                               0          $7,518,899              $0
which no management decision has been made:*
Those issued during the reporting period:                                  7        $13,890,406               $0
Those for which a management decision                                      5        $13,890,406               $0
was made during the reporting period:*
Value of disallowed costs:                                                               $130,667             $0
Value of costs not disallowed:                                                           $291,065             $0
Those for which a management decision                                      2             $317,189             $0
is not required:
Those for which no management decision                                     0        $20,987,573               $0
has been made at the end of the reporting period:*
*The figures for dollar items include sums for which management decisions on the savings were deferred.




Reports Lacking Management Decision

The Department of Energy has a system in place to track audit reports and management
decisions. Its purpose is to ensure that recommendations and corrective actions indicated by
audit agencies and agreed to by management are addressed as efficiently and expeditiously as
possible. Listed below are the audit reports over six months old, which were issued before
the beginning of the reporting period and for which no management decision has been
made by the end of the reporting period. The reason the management decision had not
been made and the estimated date for achieving a management decision are described below.

    ■   Management Audit
        IG-0669: Use and Management of Mobile Communications Services,
        December 14, 2004 - The management decision in response to this report requires
        additional action. Work continues with the affected entities to insure that the Inspector
        General’s recommendations are implemented and corrective actions are undertaken in a
        manner that is consistent with Department and organizational missions and objectives, as
        redefined by the implementation of new policies and procedures applicable to the corporate-


                                                              31
U . S . D E PA RT M E N T O F E N E R G Y                                      OFFICE OF INSPECTOR GENERAL
                    SEMIANNUAL REPORT TO CONGRESS




    wide delivery of information technology support services. These recommendations and
    corrective actions should be implemented by December 31, 2007.

    IG-0752: Certification and Accreditation of Unclassified Information Systems,
    January 3, 2007 - The finalization of the management decision on this report is awaiting
    review and concurrence by the necessary Department Elements. This should occur by
    December 31, 2007.

    IG-0753: Recovery Costs for the Proprietary Use of the Advanced Photon Source,
    January 11, 2007 - The finalization of the management decision on this report is awaiting
    review and concurrence by the necessary Department Elements. This should occur by
    December 31, 2007.

    IG-0762: Office of Intelligence and Counterintelligence Internal Controls over
    Computer Property at the Department’s Counterintelligence Directorate,
    March 28, 2007 - The finalization of the management decision on this report is awaiting
    review and concurrence by the necessary Department Elements. This should occur by
    December 31, 2007.




Prior Significant Recommendations Not Implemented
As of September 2007, closure actions on recommendations in 48 OIG reports had not
been fully implemented within 12 months from the date of report issuance. The OIG is
committed to working with management to expeditiously address the management decision
and corrective action process, recognizing that certain initiatives will require long-term,
sustained, and concerted efforts. The Department has closed 147 recommendations in the
last 6 months. Management updates the Departmental Audit Report Tracking System on a
quarterly basis, most recently in September 2007. Information on the status of any report
recommendation can be obtained through the OIG’s Office of Audit Services and Office of
Inspections and Special Inquiries.




                                             32
OFFICE OF INSPECTOR GENERAL                             U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




Inspection Statistics – April 1, 2007 to September, 2007

Inspections/Special Inquiries open at the start of this reporting period                                                   104
Inspections/Special Inquiries opened during this reporting period                                                               16
Inspections/Special Inquiries closed during this reporting period                                                               11
Inspections open at the end of this reporting period                                                                       109
Reports issued (includes non-public reports)                                                                                    15
Report Recommendations*
          Issued this reporting period                                                                                          31
          Accepted by management this reporting period                                                                          27
          Implemented by management this reporting period                                                                       36
Complaints referred to Department management/others                                                                        105
          Referrals to Department management requesting a response for OIG evaluation                                           47
*Includes non-public report recommendations




Hotline Statistics – April 1, 2007 to September 30, 2007

Hotline calls, emails, letters, and other complaints                                                                      627*
Hotline calls, emails, letters, and other complaints predicated                                                            194
Unresolved Hotline predications from previous reporting period                                                                  15
          Total Hotline predications                                                                                       209
Hotline predications transferred to the Management Referral System                                                         113
Hotline predications closed based upon preliminary OIG activity                                                                 93
Hotline predications pending disposition                                                                                         3
          Total predications processed                                                                                     209
*The figure includes complaints outside the purview of the Office of Inspector General. The complainants were referred to the
appropriate Federal, State, local, or private organization for assistance, if applicable.




                                                               33
U . S . D E PA RT M E N T O F E N E R G Y                                    OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




Investigative Statistics – April 1, 2007 to September 30, 2007

Investigations open at the start of this reporting period                                                                    262
Investigations opened during this reporting period                                                                            45
Investigations closed during this reporting period                                                                            68
Investigations open at the end of this reporting period                                                                      239
Qui Tam investigations opened                                                                                                      3
         Total open Qui Tam investigations as of 09/30/07                                                                     20
Multi-agency task force investigations opened                                                                                 19
         Total open multi-agency task force investigations as of 09/30/07                                                    121
Investigative reports to prosecutors and Department management                                                                22
Recommendations to management for positive change and other actions                                                           28
Administrative discipline and other management actions                                                                        52
Suspensions/Debarments                                                                                                        38
Investigations referred for prosecution                                                                                       13
          Accepted*                                                                                                           13
          Indictments                                                                                                         12
          Criminal convictions                                                                                                18
          Pretrial diversions                                                                                                      2
          Civil actions                                                                                                       10
Fines, settlements, recoveries**                                                                             $6,183,168.03
*Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
**Some of the money collected was the result of task force investigations.




                                                               34
OFFICE OF INSPECTOR GENERAL                                                   U . S . D E PA RT M E N T O F E N E R G Y
                           SEMIANNUAL REPORT TO CONGRESS




Feedback Sheet

The contents of the October 2007 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. If you have any
suggestions for making the report more responsive, please complete this feedback sheet and
return it to:

          United States Department of Energy
          Office of Inspector General (IG-1)
          1000 Independence Ave, SW
          Washington, D.C. 20585

          ATTN: Garland Dovers




Name: __________________________________________________________________


Daytime Telephone Number:_________________________________________________


Comments/Suggestions/Feedback:
(Please attach additional sheets if needed)




                                              35
U . S . D E PA RT M E N T O F E N E R G Y             OFFICE OF INSPECTOR GENERAL
Front Cover Photographs
(Clockwise)


Heliostats and Solar Two’s tower collect and store enough thermal energy to produce electricity to
power 10,000 homes.

Construction of turbine/generator for hydroelectric plant.

Drilling rig used in Department’s Geothermal Geopressured Extraction Project to extract heated
pressurized water and natural gas trapped below ground.

The Mighty Mouse Robot at Sandia National Laboratory capable of withstanding intense radiation,
maneuvering around obstacles, reaching into awkward places, and drilling into the ground.

Biochip slide research conducted at Argonne National Laboratory to identify human and veterinary
infectious diseases.
                                    Inspector General
                              Semiannual Report to Congress




                                   April 1, 2007 – September 30, 2007
 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL




                                         U.S. DEPARTMENT OF ENERGY
                                        OFFICE OF INSPECTOR GENERAL


                                                                        DOE/IG-0053
